National Flood Insurance Program's

Management Letter for FY 2010 DHS

Consolidated Financial Statements

               Audit


            (Redacted)

                                                           Office ofInspector General

                                                           U.S. Department of Homeland Security
                                                           Washington, DC 20528




                                                           Homeland
                                                           Security
                                           MAR 28 2011

                                            Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report presents the National Flood Insurance Program's Management Letter for FY
2010 DHS Consolidated Financial Statements Audit. It contains observations related to
internal control that were not required to be reported in the financial statements audit
report. The independent public accounting firm KPMG LLP (KPMG) performed the
integrated audit ofDHS' FY 2010 financial statements and internal control over financial
reporting and prepared this management letter. KPMG is responsible for the attached
management letter dated November 12,2010 and the conclusions expressed in it. We do
not express opinions on DRS' financial statements or internal control or provide
conclusions on compliance with laws and regulations.

The observations herein have been discussed in draft with those responsible for
implementation. We trust this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.


                                             ~(~
                                            Anne 1. Richards
                                            Assistant Inspector General for Audits
NATIONAL FLOOD INSURANCE PROGRAM
         Management Letter for the

       Year Ended September 30, 2010

                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




Office ofInspector General, U.S. Department of Homeland Security, and
Acting Administrator, Mitigation Directorate, Federal Emergency Management Agency, U.S. Department
of Homeland Security, Washington, DC

November 12, 2010

Ladies and Gentlemen:

We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS) as of
September 30, 2010, and the related statement of custodial activity for the year then ended (referred to
herein as "financial statements"). We were also engaged to examine DHS' internal control over financial
reporting (internal control) of the financial statements as of and for the year ended September 30, 2010.
We were not engaged to audit the statements of net cost, changes in net position, and budgetary resources
for the year ended September 30,2010 (referred to herein as "other financial statements"), or to examine
internal control over financial reporting over the other financial statements. Because of matters discussed
in our Independent Auditors' Report dated November 12,2010, the scope of our work was not sufficient
to enable us to express, and we did not express, an opinion on the financial statements as of September
30, 2010, and we were unable to perform procedures necessary to form an opinion, and we did not
express an opinion, on DHS' internal control over financial reporting of the financial statements as of and
for the year ended September 30,2010.

In connection with our fiscal year 2010 audit engagement, we considered compliance with certain
provisions of applicable laws, regulations, contracts, and grant agreements that could have a direct and
material effect on the financial statements. Providing an opinion on compliance with laws, regulations,
contracts, and grant agreements was not an objective of our engagement, and accordingly, we do not
express such an opinion.

During our DHS audit engagement, we noted certain matters involving the Federal Emergency
Management Agency's (FEMA) National Flood Insurance Program (NFIP) internal control and other
operational matters that are presented for your consideration. These observations and recommendations,
all of which have been discussed with the appropriate members of management of the named insurance
companies (where applicable), FEMA's Office of the Chief Financial Officer, and FEMA's Mitigation
Directorate, are intended to improve internal control or result in other operating efficiencies and are
summarized in Exhibit I of this letter. These comments are in addition to the significant deficiencies
presented in our Independent Auditors' Report, dated November 12, 2010, included in the FY 2010 DHS
Annual Financial Report. The status of our prior year observations is presented in Exhibit II.

Certain control deficiencies related to FEMA information technology (IT) controls will be presented in a
separate letter to the DHS Office of Inspector General and the FEMA Chief Information Officer, and
certain other control deficiencies related to FEMA's internal controls exclusive of our IT findings will be
presented in a separate letter to the DHS Office of Inspector General and the FEMA Chief Financial
Officer.




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S member firm of KPMG International Cooperative
                                 rKPMG International"), a Swiss entity.
As described above, the scope of our work was not sufficient to express an opinion on the balance sheet
or statement of custodial activity of DRS or the related internal control as of September 30, 2010, and we
were not engaged to audit the statements of net cost, changes in net position, and budgetary resources or
the related internal control for the year ended September 30, 2010. Accordingly, other internal control
matters and instances of noncompliance may have been identified and reported had we been able to
perform all procedures necessary to express opinions on the fiscal year 2010 financial statements and on
fiscal year 2010 internal control over financial reporting of the financial statements and had we been
engaged to audit the fiscal year 2010 other financial statements and fiscal year 2010 internal control over
financial reporting of the other financial statements. We aim, however, to use our knowledge of NFIP
gained during our work to make observations and suggestions that we hope will be useful to you.

We would be pleased to discuss these observations and recommendations with you at any time.

Management's written response to our observations and recommendations in Exhibit III has not been
subjected to the auditing procedures applied in the financial statement audit engagement and, accordingly,
we express no opinion on it.

This letter is intended solely for the information and use of DRS and FEMA management, DRS Office of
Inspector General, the Office of Management and Budget, U.S. Government Accountability Office, the
U.S. Congress, and management of the named insurance companies, and is not intended to be and should
not be used by anyone other than these specified parties.

Very truly yours,
                                                                                                Exhibit I

I. BACKGROUND

The Mitigation Directorate of the Department of Homeland Security (DHS) Federal Emergency
Management Agency (FEMA) manages the National Flood Insurance Program (NFIP). Private insurance
companies and the Direct Servicing Agent administer the flood insurance policies issued through the
NFIP. The insurance companies and Direct Servicing Agent write NFIP policies, adjust flood claims,
process and distribute claim payments to policyholders, and establish and maintain loss reserves. To
assist the NFIP in the management of the program, the NFIP has contracted with a third-party service
provider. The data associated with flood policies and claims are used to calculate estimates included in
the year-end NFIP financial statements, which are recorded in the year-end DHS financial statements.
Thus, the precision of the estimates to reflect actual events is dependent upon the accuracy and
consistency of the underlying data submitted by the insurance companies and the Direct Servicing Agent
on a monthly basis.

II. INTERNAL CONTROL DEFICIENCIES RELATED TO CLAIMS

A.	 Internal Control Deficiencies Identified over Claims Paid

Observation
We selected 10 insurance companies to perform audit procedures over claims paid for the periods October
1,2009 through March 31,2010, April 1 through June 30, 2010, and July 1 through August 31,2010. For
the 10 companies selected, we tested a sample of claims paid totaling 600 items covering the three testing
periods identified above. During this testing, we noted the following internal control deficiencies and
errors:

1)	 Based on our March 31, 2010 testwork, for one sample item, we noted that evidence of the claim
    examiner's review of the increased cost of compliance (ICC) report and claim file prior to claim
    payment was not available and included in the claim file.

                        Comoanv      Policy Number      Date of Loss         Claim Payment
                                                            03110/2009         $15,000.00

2)	 Based on our March 31, 2010 testwork, for one sample item, we noted that the claim file was not
    appropriately reviewed prior to the claim payment to the policyholder based on the claim examiner's
    payment authority limit.

                        Company      Policy Number          Date of Loss     Claim Payment
                                                            09/21/2009          $4,000.00

3)	 Based on our March 31, 2010 testwork, for 19 sample items, we noted that based on the claim file, the
    loss reserve was not updated in the appropriate accounting month for subsequent preliminary/final
    reports received from the adjustor and/or payments made to the policyholder.

                               Comoanv           Policy Number             Date of Loss
                                                                            11111/2009
                                                                            11/05/2009
                                                                            ll/13/2009



                                                     I.1

                                                                                             Exhibit I
                              Company          Policy Number     Date of Loss
                                                                  12/18/2009
                                                                  11112/2009
                                                                  10/30/2009
                                                                  01125/2010
                                                                  1111112009
                                                                  11112/2009
                                                                  11/12/2009
                                                                  11/13/2009
                                                                  11/12/2009
                                                                  10/29/2009
                                                                  09/21/2009
                                                                  11/12/2009
                                                                  11113/2009
                                                                  11/12/2009
                                                                  09/21/2009

                                                                  08/29/2005

4) Based on our March 31, 2010 testwork, for one sample item, we noted that a loss reserve was not
   established upon the insurance company receiving the notice of loss.

                              Company          Policy Number     Date of Loss
                                                                  06/18/2008

5) Based on our March 31, 2010 testwork, for one sample item, we noted that the loss reserve was not
   closed in the month that the final payment was made.

                              Company          Policy Number     Date of Loss
                                                                  11/12/2009

6) Based on our March 31, 2010 testwork, for one sample item, we noted that the loss reserve was closed
   before the month of final payment.

                               Company         Policy Number     Date of Loss
                                                                 08/29/2005

7)	 Based on our March 31, 2010 and June 30, 2010 testwork, for seven sample items, we noted that the
    Loss Adjustment Expense (LAE) payment was incorrect based on supporting documentation in the
    claim file and the NFIP LAE Schedule.




                                                  1.2

                                                                                                             Exhibit]

        March 31,2010 Testwork Results:

                       Company            Policy Number                       Date of Loss   LAE Payment
                                                                              03/1012009        $1,350.00
                                                                              0912112009        $2,547.48
                                                                              06/14/2008        $1,920.27
                                                                              09/13/2008        $1,669.63
                                                                               12/12/2009       $2,000.00

                                          ------­                _
                                                    .............. .. _---­
                                                                              09/16/2004         $575.00

       June 30,2010 TestworkResults:

                       Company            Policy Number                       Date of Loss   LAE Payment
                                                                               0412812009       $4,726.28

8)	 Based on our March 31, 2010 and June 30, 2010 testwork, for three sample items, we noted an
    overpayment/underpayment of claim payments to the insured based on the adjuster's final report and
    other supporting documentation in the claim file.

       March 31, 2010 Testwork Results:

                       Company            Policy Number                       Date of Loss   Claim Payment
                                                                              01/08/2009        $4,396.25

       June 30,2010 Testwork Results:

                      Company             Policy Number                       Date of Loss   Claim Payment
                                                                               11/1212009        $498.80
                                                                              05/0212010       $15,000.00

Recommendations
We recommend that FEMA's Mitigation Directorate:

1) Follow-up with each of the insurance companies to determine that appropriate corrective action has
   been implemented to address the exceptions noted.

2) Provide increased oversight to insurance companies participating in the NFIP to ensure claims files
   are being processed and reviewed in accordance with NFIP guidelines before approval and issuance
   of claim payments and to ensure the specific and consistent establishment and reporting of loss
   reserves and subsequent adjustments to the loss reserves.




                                                                1.3

                                                                                                Exhibit]

B.	 Inaccuracies in Claims' Loss Reserves

Observation
We selected 10 insurance companies to perform audit procedures over the accuracy and completeness of
loss reserves established as of January 31, 2010 and June 30, 2010. For the 10 companies selected, we
tested a sample ofloss reserves reported as of January 31, 2010 and June 30, 2010, totaling 587 items and
612 items tested, respectively. During this testing, we noted the following inaccuracies at the respective
insurance companies:

1)	 Based on our January 31, 2010 testwork, for two sample items, the recorded date of loss in the
    company's NFIP claims system was not accurate based on the supporting documentation in the claim
    files.

                                                             Date of Loss    Date of Loss
                        Company          Policy No.          per SYstem     per Claim File
                                                              12/24/2009     08/29/2005
                                                              12/23/2009     0812912005

2) Based on our January 31, 2010 testwork, for three sample items, the loss reserve amount was
   incorrectly adjusted by the claims examiner based on the claim file supporting documentation.

                              Company                  Policy No.           Date of Loss
                                                                             08/29/2005
                                                                             11/1312009
                                                                             10/1712009


3) Based on our January 31, 2010 testwork, for 17 sample items, the loss reserve was not adjusted for
   partial and/or advance payments made to the policyholder.


                              Company                  Policv No.           Date of Loss
                                                                             12/1712009
                                                                             05/02/2009
                                                                             11/1912009
                                                                             09/1312008
                                                                             09/1312008
                                                                             06/08/2001
                                                                             09/13/2008
                                                                             02/0412008
                                                                             12/17/2009
                                                                             08129/2005
                                                                             12/1312009
                                                                             11/25/1999
                                                                             0812012008



                                                      1.4

                                                                                                 Exhibit I


                              Company                Policy No.        Date of Loss
                                                                       09/1312008
                                                                       06/1512008
                                                                       09125/2009
                                                                       09/1312008


4)	 Based on our January 31, 2010 testwork, for three sample items, the insurance company attempted to
    correct an attribute related to the claim file in the company's NFIP claims system; however, this reset
    the loss reserve to the default system amount. Therefore, claim payments made prior to January 31,
    2010 did not reduce the loss reserve balance as of that date.


                              Company                Policy No.        Date of Loss
                                                                       05/0912009
                                                                       06/13/2008
                                                                        11/12/2009

5) Based on our January 31, 2010 testwork, for eight sample items, the loss reserve was not adjusted for
   subsequent adjuster reports and/or the final denia11etter.


                              Company                Policy No.        Date of Loss
                                                                        12/2412009
                                                                        10/2312009
                                                                        12/2412009
                                                                        11/0912009
                                                                        11/13/2009
                                                                       06/1112002
                                                                        11/1212009
                                                                        11/13/2009

6)	 Based on our January 31, 2010 testwork, for one sample item, the preliminary report indicated a loss
    reserve for both building and contents; however, a loss reserve was not established for the contents
    portion by the claims examiner.


                              Company                Policy No.        Date of Loss
                                                                        10/2812009

7) Based on our January 31, 2010 testwork, for three sample items, the loss reserve was not closed in a
   timely manner after full payment of the claim was made to the policyholder.



                              Company                Policy No.        Date of Loss
                                                                        12/2412009

                                                    1.5

                                                                                              Exhibit I


                             Company               Policy No.        Date of Loss
                                                                      12/23/2009
                                                                      06/12/2008


8) Based on our January 31, 2010 testwork, for four sample items, the loss reserve was not appropriately
   established/adjusted because of a claims examiner clerical error.



                            Company                Polley No.        Date of Loss
                                                                      01/25/2009
                                                                      11/12/2009
                                                                      12117/2009
                                                                      11/12/2009


9)	 Based on our January 31, 2010 testwork, for one sample item, the loss reserve was converted from a
    previous insurance company vendor and did not reflect the activity identified in the claim file
    supporting documentation.


                            Company                 Policy No.        Date of Loss
                                                                       09/13/2008

10) Based on our January 31, 2010 and June 30, 2010 testwork, for 75 sample items, the claim file
    supporting documentation did not support the loss reserve recorded in the insurance company's NFIP
    claims system.

       January 31,2010 Testwork Results:



                            Company                 Policv No.        Date of Loss
                                                                       12/03/2007
                                                                       09113/2008
                                                                       09112/2008
                                                                       08/29/2005
                                                                       07110/2005
                                                                       08/29/2005
                                                                       11112/2009
                                                                       08/29/2005
                                                                       08/29/2005
                                                                       08/29/2005
                                                                       08/29/2005
                                                                       09/0112006
                                                                       09118/2003


                                                  1.6

                                                                   Exhibit I


                   Company             Policv No.   Date of Loss
                                                     06/30/2007
                                                     09/17/2004
                                                     08129/2005
                                                     09/1312008

June 30,2010 Testwork Results:

                   Company       Policy Number      Date of Loss
                                                    06/28/2006

                                        -           05/0112010
                                                    06/08/2008
                                                    06/14/2010
                                                    05/02/2010
                                                     10/0812005
                                                    08/29/2005
                                                    0911312008
                                                    09/1312008
                                                    05/0112010
                                                    08/19/2008
                                                     10/1412005
                                                    01/0812009
                                                    09/13/2008

                                                    0412612010
                                                    04130/2010
                                                     12117/2009
                                 I                  05/02/2010
                                                    0911312008
                                 I                  05/0112010

                                                    0412612010
                                                    03/3112010
                                                    02/0812010

                                                    09/13/2008
                                                    08/29/2005
                                                    06/09/2001
                                                    04/0912008
                                                    06/09/2010

                                                    06/09/2010
                                                    0911312008
                                                    0611712009

                                     1.7

                                                                                              Exhibit]
                             Company             Policy Number       Date of Loss
                                                                      06/0912010
                                                                      06/09/2010
                                                                      11/1212009
                                                                      03/2912010
                                                                      06/1012010
                                                                      03/1312010
                                                                      OS/011201O
                                                                      OS/101201O
                                                                      03/3012010
                                                                      06/1212010
                                                                      03/3012010
                                                                      OS/0212010
                                                                      08/30/200S
                                                                      OS/01/2010
                                                                      0612812006
                                                                      08129/200S
                                                                      OS/02/2010
                                                                      OS/02/2010
                                                                      081291200S
                                                                      08/29/200S
                                                                      06/09/2010
                                                                      OS/02/2010
                                                                      06/14/2010
                                                                      06121/2010
                                                                      06/1S/2008
                                                                      OS/01/2010
                                                                      06/12/2010

11) Based on our June 30, 2010 testwork, for one sample item, we noted that a claim was opened with an
    incorrect date of loss and remained open when a new claim was opened with the correct date of loss,
    resulting in a duplicate claim.

                            Company               Policy Number       Date of Loss
                                                                      OS/0112010


12) Based on our June 30, 2010 testwork, for one sample item, the insurance company did not provide the
    file for this claim.

                            Company              Policv Number       Date of Loss
                                                                      08/291200S




                                                  1.8

                                                                                                Exhibit I

Recommendations
We recommend that FEMA's Mitigation Directorate:

1)	 Follow-up with each of the insurance companies noted above to determine that appropriate corrective
    action has been implemented to address the exceptions noted.

2)	 Provide increased oversight to ensure the specific and consistent documentation of the established
    loss reserve and subsequent adjustment to the loss reserve per claim at the insurance companies
    participating in the NFIP is maintained.

III. OTHER INTERNAL CONTROL DEFICIENCIES

A.	 Internal Control Deficiencies Identified over Premiums Written

Observation
We selected 10 insurance companies to perform audit procedures over premiums written for the periods
October 1,2009 through March 31, 2010, April 1 through June 30, 2010, and July 1 through August 31,
2010. For the 10 companies selected, we tested a sample of premiums written totaling 500 items covering
the three testing periods identified above. During this testing, we noted the following internal control
deficiencies and errors:

1)	 Based on our March 31, 2010 and August 31, 2010 testwork, for two sample items, we noted that the
    designated flood zone per the policy declaration page did not agree to the FEMA flood maps for the
    insured property address. Based on the incorrect flood zone used, we noted that the policy premium
    was calculated incorrectly.

        March 31, 2010 Testwork Results:

                            Company        Policy Number    Premium Receipt Date
                                                                 01120/2010


        August 31,2010 Testwork Results:

                            Company         Policy Number   Premium Receipt Date
                                                                 08/16/2010


2)	 Based on our March 31, 2010 testwork, for two sample items, we noted that the policy declaration
    page indicated that the premium should be calculated using pre-firm construction rates, but the policy
    premium was calculated using post-firm rates. Per the NFIP Manual, elevated pre-firm premiums
    may be calculated using post-firm rates if an elevation certificate is completed. However, we were
    unable to obtain the elevation certificates to support the use of post-firm rates for those policies.




                                                   1.9

                                                                                                       Exhibit]

                             Company        Policy Number      Premium Receipt Date
                                                                      0112712010
                                                                      03/0112010


3)	 Based on our March 31, 2010 testwork, for one sample item, we noted that the premium was
    calculated using a basement and above contents rate. However, the application indicated that contents
    should be calculated using lower floor only - above ground level rates.

                             Company        Policy Number       Premium Receipt Date
                                                                      12/1712009



4)	 Based on our March 31, 2010 testwork, for one sample item, we noted that the premIUm was
    calculated based on a preferred risk policy without basement or enclosure rates. However, the
    application indicated that the property had a finished basement below the building.

                             Company         Policy Number      Premium Receipt Date
                                                                       1111712009



Recommendations
We recommend that FEMA's Mitigation Directorate:

1)	 Follow-up with each of the insurance companies noted above to determine that they have
    implemented the appropriate corrective action to address the exceptions identified.

2)	 Provide increased oversight to insurance companies participating in the NFIP to ensure they process
    and review underwriting files in accordance with NFIP guidelines.

B.	 Internal Control Deficiencies over the Retrospective Reserve Analysis

Observation
We identified that the monthly Retrospective Reserve Analysis over the insurance liability estimate for
July 31, 2010 prepared by third-party service provider's actuary contained discrepancies in the calculation
of "total reserves retrospectively" and the reserve "redundancy/deficiency" amount for the month of July
2010. We noted the subsequent losses paid, current outstanding case reserve, and current incurred but not
reported (ffiNR) reserve for the Direct Servicing Agent were improperly excluded from the "total
reserves retrospectively," which resulted in the calculation of the "redundancy" being misstated by
$45,919,624.

                                              Currene                               Financial
               Subsequent    Current 0/8       IBNR          Total Reserves         Statement    Redundancy 1
                ,Loss Paid   Case Reserve     Re~erve        RetroslJectiveJy       Reserves      (l>eficiency)
 FEMA         $82,779,557    $90,716,321    $129,274,906     $ 256,851,160      $334,758,959    $77,907,799   *
 KPMG         $82,779,557    $90,716,321    $129,274,906     $ 302,770,784      $334,758,959    $31,988,175

 Difference                                                                                     $45,919,624

*	 The documented "redundancy/deficiency" in the Retrospective Reserve Analysis was $23,477,443
   because of a formula error. Based on the documented "total reserves retrospectively" and "financial

                                                    1.10
                                                                                                 Exhibit]
   statement reserves," the amount that should have been shown as the "redundancy/deficiency" was
   $77,907,799.

Recommendation
We recommend that FEMA's Mitigation Directorate enhance the Chief Actuary's Retrospective Reserve
Analysis review procedures to include a review of the accuracy of the amounts and calculations in the
analysis.

C.	 Deficiency in the Methodology Used to Calculate the Non-Current Portion of the Insurance
    Liability Estimate

Observation
We noted the following conditions relate to the calculation of the current and non-current portions of the
insurance liability estimate:

1)	 In fiscal year (FY) 2009, FEMA's Office of the Chief Financial Officer (OCFO) calculated the
    current and non-current portions of the insurance liability estimate using a 33% and 67% split,
    respectively. In FY 2010, the third-party service provider's actuary was asked to determine the
    percentage and calculated the current and non-current portions of the insurance liability as 85% and
    15%, respectively. FEMA did not provide rationale for the large change in percentages used for the
    current and non-current portions of the insurance liability from FY 2009 to FY 2010, explain the
    methodology used in FY 2009, or provide rationale for the change in methodology from the prior year
    to the current year.

2)	 In FY 2010, the methodology used by FEMA to calculate the current and non-current portions of the
    insurance liability estimate, developed by the third-party service provider's actuary, utilized the
    assumption that non-current liabilities represented estimated losses for accident months September
    2009 and earlier. FEMA explained that, absent any major disasters, it would expect that a similar
    percentage of claims would have accident months older than one year at September 30 each year.
    FEMA's reasoning provided for the current and non-current portions of the insurance liability
    calculation is not consistent with Statement of Federal Financial Accounting Standards No.1 and is
    not supported by actual FY 2010 claim payment data. The non-current portion of the liability should
    represent the insurance claims that will not be paid within the next year, not insurance claims with an
    accident month older than one year.

Recommendation
We recommend that FEMA's OCFO and Mitigation Directorate develop, document, and approve
procedures to periodically reassess a methodology for calculating the current and non-current portions of
the insurance liability estimate that is in compliance with the applicable accounting standards.




                                                   I.11

                                   Status of Prior Year Observations                         Exhibit II

The status of each observation reported in our letter dated November 13, 2009 to the Office of Inspector
General, U.S. Department of Homeland Security, and Acting Administrator, Mitigation Division, Federal
Emergency Management Agency, U.S. Department of Homeland Security, is summarized in the table
below. For each repeated observation, we provided the current year Observation Number and Notice of
Findings and Recommendations (NFR) Number.




              Internal Control Deficiencies Identified
                                                                                     n.AI FEMA 10-01
    LA        over Claims Paid
                                                                                      & FEMA la-ala
              Inaccuracies in Interim Claims' Loss
                                                                                     n.B/ FEMA 10-02
     LB       Reserves
                                                                                      & FEMA 10-02a
              Internal Control Deficiencies Related to
    ILA       NFIP Restricted Bank Accounts                      X

              Internal Control Deficiencies in the Claims
    n.B       Reinspection and Submit for Rate Programs          X

              Insufficient FEMA Oversight of the NFIP
              Service Provider's Methodology Used to
    ILC                                                                       X
              Calculate Estimates Reported in the FEMA
              Financial Statements
              Monitoring and Communication of
    ILD       Significant Financial-Related Matters in the                    X
              NFIP




                                                     ILl
                                         Management's Response	                                                       Exhibit III



                                                                            I.:.S. nell.rlmenl of Homeland Security
                                                                            500 C Stroe~ SW
                                                                            Washington, DC 20472




                                                                           FEMA

                                              February 7, 20 I I

 Memorandum For:        Anne Richards
                        Acting Assistant nspector General for Audits



From:                  ~L.conno~
                        Acting Federal Insurance and Mitigation Administrator



Subject:	               Draft Report: NFIP Management Letter for DHS' FY 20 I0
                        Financial Statement Audit

Thank you for the opportunity to comment on the draft management letter for the DHS FY 20 I0 financial
statement audit.

Internal Control Deficiencies Related to Claims

    A. Internal Control Deficiencies Identified over Claims Paid

Management concurs with the recommendation and has initiated follow-up with the WYO companies on the
exceptions noted. The NFIP will continue to review WYO company claims handling as part of the ongoing
claims operation reviews to ensure compliance with NFIP guidelines and consistent establishment and
reporting of loss reserves and subsequent adjustments. Management does not believe that claims loss reserves
are material to the loss reserving process.

    B. Inaccuracies in Claims' Loss Reserves

Management concurs with the recommendation and has initiated follow-up with the WYO companies on the
exceptions noted and will continue to review WYO company claims loss reserving as pan of the ongoing
claims operation reviews to ensure consistent establishment and reporting of loss reserves and subsequent
adjustments. Management does not believe that claims loss reserves are material to the loss reserving
process.

Other Internal Control Deficiencies

    A. Intemal Control Deficiencies Over Premiums WI'itten

Management concurs with the recommendation and has initiated Follow-up with the WYO companies on the
exceptions noted and will continue to review WYO company underwriting processes as part of the ongoing
underwriting operation reviews.




                                                         IILl
                                         Management's Response	                                               Exhibit/II




    B.	 Internal Control Delicienciesover the Retrospective Reserve Analysis

M:lIlagement concurs with Ule recommendation. The Chief Actuary has enhanced the retrospective reserved
analysis review process to include a review of the accuracy of the amounts and the calculations used in the
analysis.

    C.	 Deficiency in the Methodology Used to Calculate the Non-current Portion of the Insurance
        Liability Estimate

Management concurs with the recommendation. FEMA's OCFO and the Mitigation Directorate are
developing procedures to reassess periodically a methodology for calculating the current and non-current
portions of the insurance liability estimnre that complies with the applicable accounting standards.




                                                          III.2

Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Federal Emergency Management Agency

                      FEMA Administrator
                      Chief Financial Officer
                      FEMA Audit Liaison
                      Director of Mitigation Division
                      Chief of Risk Insurance

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLlNE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
